Supreme Court, U.S.
FILED

MAR 0 8 2021

Nn.aO-NQH

OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES

Kenyon Garrett,
Petitioner,
vs.
United States of America,
Respondent

On Petition for a Writ of Certiorari to
the United States Court of Appeals
for the Fifth Circuit

PETITION FOR A WRIT OF CERTIORARI

Kenyon J Garrett
Petitioner, Pro Se
P.O. Box 132826
Tyler, TX 75713
(903) 574-0783
Kentvjer88@gfrsall.com

I.

Question Presented

1. Whether the Respondent/Defendant can use direct evidence of threats,
intimidation, coercion, fraud, and witness tampering to deprive a petitioner
of his 5th and 14th Amendments rights of due process and the fundamental
fairness to present my case fully and fairly. The Fifth Circuit’s opinion in
this legal matter conflicts with another circuit’s opinion regarding the
allowance of fraud and misconduct (obstruction, coercion) in a civil
proceeding that requires this Court’s intervention. Does direct, clear and
convincing evidence of the Respondent/Defendant egregious misconduct
requires relief under F.R.C.P 60 (b) (3) (6)?
2. Whether a Pro Se Petitioner Seventh Amendment right to a jury trial can be
denied by the lower Courts in a civil proceeding, when the disputed amount is
greater than twenty dollars ($20.00), and the jury trial was requested by the
petitioner in writing in the Original Complaint under F.R.C.P 38?
3. Whether the lower Courts committed reversible error and violation of
petitioner’s Constitutional rights to present relevant, non-cumulative,
evidence under F.R.C.P 60 (b) (2) (6); were the Respondents/Defendant’s
clients has admitted to guilt and guilt of a third party?
4. Whether cumulative-error doctrine applies to Civil Proceeding. There is
circuit split regarding cumulative error applicability in civil cases which
requires this Court supervisory power. Do cumulative-errors that deprive a
petitioner of their Constitutional rights of fundamental fairness to present
my case fully and fairly in Civil Proceeding require relief under F.R.C.P 60
(b)?

I

PARTIES TO PROCEEDING AND RELATED CASES

Solicitor General of the United States
Room 5616
Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530-001

*Garrett v. United States, No. 5:17-cv-00784 District Court for The Western District
Judgements entered November 21, 2019 - December 12, 2019
of Louisiana:
*Garrett v. United States, No, 19-30994 Fifth Circuit Court of Appeals:
Judgements entered July 24, 2020 and October 09, 2020

#«

II

II.

Table of Contents

Question Presented

1

List of Parties in Proceeding Below

11

Table of Contents

in

Table of Authorities

IV

Opinions Below

1

Jurisdiction

1

Constitutional Provisions Involved

1

Statement of the Case

2

Reasons for Granting the Writ

4

Conclusion

15

CERTIFICATE OF SERVICE

16

CERTIFICATE OF COMPLIANCE

17
APP 1-8

Appendices

>» * *

ii i

Table of Authorities
Adams v. Home Health Care of Louisiana, et al 775 So. 2d 1064 (La. Supreme Court
8
2000),
Arizona v. Fulminante 499 U.S. 279 (1991), United States Supreme Court........ 9, 12
Armstrong v. Manzo ET UX. 380 U.S. 545 (1965) Supreme Court of the United
States quoting Grannis v. Ordean, 234 U.S. 385, 394.............................. ..............

9

Chambers v. Nasco, Inc; 501 U.S. 32, 44(1991)................. ............... ......................

10

Daubert v. Merrell Dow Pharmaceuticals, 509 U.S. 579; 113 S.Ct. 2786 (1993)

14

G-K Properties u. Redevelopment Agency 577 F.2d 645 (9th Cir. 1978)

15
2

Hatahley v. United States, 351 U.S. 173 (1956)
Hendler v. United States, 952 F.2d 1364, 1383 (Fed. Cir 1991)

13

Hepner v. United States, 213 U.S. 103, 115 (1909)

11

In re Murchison, 349 U.S. 133, 136, 75 S.Ct. 623, 99 L.Ed. 942 (1955)

10

Klapprott v. United States, 355 U.S. 601, 69 S. Ct. 384, 93 L. Ed. 266 (1949)

10

Kumho Tire Co. v. Carmichael 526 U.S. 137 (1999)

14
9

Larry v. White, 929 F.2d 206, 211 N.12 (SthCir. 1991)
Liljeberg v. Health Services Acquisition Corp., 486 U.S. 847 (1988)

16

Malek v. Fed. Ins 994 F. 2d 49, 55 (2nd Cir. 1993)

13

Nichols v. Am. Nat’l Ins., 154 F3.d 875, 889-90 (8th Cir. 1998)

13

Nissho-Iwai American Corp. v. Kline, 845 F.2d 1300, 1306 (5th Cir. 1988)
Napuev v. Illinois, 360 U.S. 264, 269 (1959)

9, 14
10

Payne v. Arkansas 356. U.S. 560 (1958) Supreme Court of the United States quoting
9
Watts v. Indian 338 U.S. 49, 52, 53.
Rembrandt Vision Technologies, L.P., v. Johnson & Johnson Vision Care, Inc., 20156
1079 (11th Cir. 2016)

?V

Ripley v. Chater, 67F.3d 552 (5th Cir. 1995).................... ..............................

13

Roberts v. United, 239 F. 2d 467, 470 (9th Cir. 1956)................ ................... .

7

SEC v. Infinity Grp. Co., 212 F. 3d 180, 196 (3rd Cir. 2000)............. ..............

13

Smith v. Elmwood Medical Center, 720 So. 2d 122, 1224 (La. 5th Cir. 1998)

14

Stiltner u. Hart, 657F. App’x 513 (6th Cir. 2016)............................. ....... .

13

Taylor v. Hayes 418 U.S. 488, 501, 94 S. Ct. 2697, 41 L. Ed. 2d 897(1974) .

15

Thompson v. City of Chicago, 772 F. 3d 963, 979 (7th Cir. 2013).....................

13

Tull v. United States, 418 U.S.412 (1987).............................................................

11

Turney v. Ohio, 273 U.S. 510............ ............. ................... .................................

16

Unites States v. Carmen, 697F.3d 964 (9th Cir 2012)........................ ...............

13

United States v. Basham, 561 F. 3d 302, 330 (4th Cir. 2009) (quoting United States v.
14
Bell, 367F. 3d 452, 471 (5th Cir. 2004))....................... ............... ............... ...........
United States v. Murray, 736 F.3d 652 (2nd Cir. 2013)..................... .................. .

13

United. States v. Regan, 232 U.S. 37, 47 (1914)............................

11

United States v. Scaife, 749 F. 2d 338, 348 (6th Cir. 1984).................. ..............

8

United States v. Sharpe, 193 F.3d 852, 864 (5th Cir. 1999)..................................

8

United State v. Sipe, 388 F.3d 471(5th Cir. 2004)................................ ..................

16

United States v. Turning Bear, 357 F. 3d 730 (8th Cir. 2004)........................—

J. t/

Washington v. Texas, 388 U.S. 14(1967) Supreme Court of the United States

12

Williams v. Drake, 146 F.3d 44, 46 (1st Cir. 1998)............................ .....................

13

1 Q

Withrow v. Larkin, 421 U.S. 35, 47, 95 S.Ct. 1456, 1464, 43 L. Ed. 2d 712 (1975)..16

Statutes. Rules, and Laws
2

Federal Tort Claims Act (FTCA)
FRCP 38.

10, 11

FRCP 59

5, 15
5, 15, 16

FRCP 60(b)

V

FRCP 60(b) (2) (6)

11, 12, 13

FRCP 60 (b) (3) (6)

2, 3, 4, 9
4, 5, 6, 9

LA Code Civ. Pro 966 (2015) (A)4.
La. Code of Civ. Pro. Art. 964.

14

LA Code Civ Pro 1733 (B)

11

LA Civ Code 1953.

2, 10

LA. CCP. Art 2004.

10

LA Civ Code 2315.

2

La. Code of Evidence Rule 803.

12

Louisiana R.S. 9:2794 (D) (1) (b)

14

LA. RS. 9:5628.

2

La R.S. 14:27 (a)

8

LA R.S. 14:130.1 (A) (1) (4) (a)

8

La R.S. 40:1157.1

2

La. Rev. STAT15:1303(c)(4)

12

Louisiana business-exception rule “La. Code of Evidence Rule 803.”

12

Louisiana Law: CCP 1425 F (2)

14
8

Louisiana Legal Ethic Rules 8.4 (d) (g)
18 U.S.C §1503.

7,8

18 U.S.C §1512.

8
12

18U.S.C. 2511(2)(d)
28 U.S.C §1346(b)

2

28 U.S.C §2671

2

28 U.S.C. §2674.

2

VI

Constitutional Provisions
United States Constitution, Amendment V,

7, 11, 16

United States Constitution, Amendment VII

10, 11, 16

United States Constitution Amendment XIV,

7, 11, 16

III. Petition for Writ of Certiorari
Petitioner Pro Se Kenyon J Garrett respectfully petitions this court for a writ of
certiorari to review the judgement of the Fifth Circuit Court of Appeals.

IV.

Opinions Below

The decision by the Fifth Circuit Court of Appeals denying my appeal is reported
as Garrett v. United States of America, No. 19-30994 (5th Cir. 2020) is attached
at Appendix (“App”) at 1-5. The Fifth Circuit Court of Appeals denied my
petition for rehearing en-banc on October 09, 2020 is attached at Appendix
(“App”) at 6.

V.

Jurisdiction

The judgement of the court of appeals for the Fifth Circuit was entered on July
24, 2020. A petition for rehearing en banc was denied on October 09, 2020. This
court issued an order on March 19, 2020 (Order List: 589 U.S.) granting an
extension of 150 days until March 08, 2021 to enter a Writ of Certiorari. Writ of
Certiorari was filed before March 08, 2021 deadline. The jurisdiction of this
Court is invoked under 28.US.C. § 1254.

VI.

Constitutional Provisions Involved

United States Constitution, Amendment V:

l.

“The Constitution states only one command twice. The Fifth Amendment
says to the federal government that no one shall be “deprived of life, liberty, or
property without due process of law.” Due process clause promises that before
depriving a citizen of life, liberty, or property government must follow fair
procedures. Citizens may also be entitled to have the government observe or
offer fair procedures, whether or not those procedures have been provided for in
the law on the basis of which it is acting. Action denying the process that is
“due”: would be unconstitutional.
Amendment VII:
In suits at common law, where the value in controversy shall exceed twenty
dollars, the right of trial by jury shall be preserved and no fact tried by a jury,
shall be otherwise reexamined in any court of the United States, than according
to the rules of the common law.
Amendment XIV:
All persons born or naturalized in the United States, and subject to the
jurisdiction thereof, are citizens of the United States and of the State wherein
they reside. No State shall make or enforce any law which shall abridge the
privileges or immunities of citizens of the United States; nor shall any State
deprive any person of life, liberty, or property, without due process of law; nor
deny to any person within its jurisdiction the equal protection of the law,
www.law.cornell.edu. ”

Statement of the Case
My administrative claim was filed on July 18, 2016 with the Department of
Veterans Affairs informing them that the medical negligence created by Overton
Brooks VA Medical Center (OBVAMC) healthcare providers caused my father’s
premature death. I filed suit on June 16, 2017, for my deceased father (Clarence
Garrett) against the United States “USA” for medical negligence, informed consent,
fraud, elderly abuse, negligent restraint, loss chance of survival, failure to transfer,
and multiple cause of actions on the part of the Physicians, and Non-medical staff
(nurses, nurse aids, dietitians, therapist, and hospital administrations) at Overton
Brooks VA Medical Center (OBVAMC) in Shreveport, Louisiana. The Department
of Veterans Affairs was also named in this legal matter as my claims were filed
pursuant to the Federal Tort Claims Act, 28 U.S.C §1346(b), 28 U.S.C §2674, and 28
U.S.C §2671,et seq. Under the Federal Tort Claims Act (FTCA), 28 U.S.C. §2674, et
seq, liability is decided under “the law of the place where the act or omissions
occurred see, Hatahley v. United States, 351 U.S. 173 (1956). Moreover, this legal
matter originated in Louisiana; consequently the laws of that state govern this case

£

which included the following laws: LA Civ Code 2315, LA Civ Code 1953, LA. RS.
9:5628, L A. RS 40: 1157.1, as these are only a few of the State laws that were
involved in this case. Additionally non-, I served as the plaintiff, witness, and
medical expert (against nurses and medical employees) in this official legal
proceeding.
All undisputed material photographs of my father’s medical negligence in this
case was submitted before I received any letters containing threats, coercion,
witness tampering, and intimidation from the Government attorney to stop
submitting evidence to support my case. On December 20, 2017 the court issued a
Report and Recommendation from Magistrate Judge Hayes which she
recommended that the “USA” motions be granted in part and denied in part. Then,
on May 18, 2018 I submitted a Motion to Amend my original complaint to add
negligent credentialing, and privileging claim as well as a negligent hiring claim.
The lower court denied my equitable tolling request, and stated that I had to file a
new lawsuit for that matter. During the discovery phase of this legal matter I
informed the Government attorney on record that the requested documents that I
was receiving from the Department of Veterans Affairs may not be accurate, and
will she be signing for these requested documents to make sure that they are
accurate.
The record reflects that the Government informed me via electronic-mail on
July 27, 2018 that if I continue to inform them that the documents I requested were
inaccurate, they would indeed file sanctions against me for questioning the
documents I needed to prove my case. Most important, on or about October 3, 2018
the Government attorney informed me via a signed dated letter that if I moved
forward with my allegations/evidence to prove my case against “OBVAMC” she
would seek sanctions against me for submitting this evidence, and if I keep trying to
make this matter criminal against her clients (Department of Veterans Affairs) she
would of course get the court involved. Being a Black Pro Se filer I became terrified
of these threats from an Assistant United States Attorney to the point that I only
submitted limited selected evidence to prove my case because I was afraid of
sanctions and jail time from a Department of Justice‘s Government attorney. Most
important, I went to the Courts for help with this matter on several occasions, and
the record reflects that I briefed the Court on November, 13 2018; December 17.
2018; February 05, 2019; February 07, 2019 (informed Magistrate Judge during
scheduling conference). Yet, the District Court failed to hold a hearing or even
address the Government egregious misconduct before they dismissed my case.
Furthermore, if I wasn’t threaten and coercion by the “USA” to stop submitting
evidence, I would have presented my case totally different by submitting material
evidence that I was clearly told by the Government attorney not to submit.

3,

Reasonable jurist would concur that a Black Pro Se filer who was threaten by
a Government attorney to stop submitting evidence to support their claims would
definitely be afraid to submit evidence, especially since the District Court (5:17-cv00784) and Fifth Circuit (19-30994) allowed this outrageous Government
misconduct to happen. This neglect by the lower courts led to an unfair legal
process, deprived me of my guaranteed Constitutional rights of due process and
fundamental fairness. Moreover, reasonable jurist would concur that I
demonstrated due diligence by informing the lower Courts on several occasions that
the Government misconduct stop me from entering material evidence to support my
claims. Also, the record will reflect and reasonable jurist would concur that the
Government intentional sent threatening, intimidating, and coercing letters with
criminal intent to suppress my ability to enter material evidence to support my
claims against their clients. The lower court records (19-30994) (5:17-cv-00784)
reflects that the Government didn’t deny their criminal intent to obstruct this
official proceeding.
On November 13, 2018 I filed for summary judgment on the claims of informed
consent and fraud, and then I informed the District Court that the rest of my claims
contained material evidence that I couldn’t move forward with because of the
Government’s coercion and threats. Then, on December 27, 2018 I informed the
lower Courts that the Government failed to make important witnesses available for
depositions as well as failing to make their medical experts available for depositions
before the original court mandated deadline. The Government then filed a Motion
to Stay the Proceeding on December 31, 2018, and this Motion to Stay was lifted on
January 31, 2019. On February 05, 2019 (5:17-cv-00784) I filed an Opposition Brief
to the Government summary judgment request, and again wrote in detail in this
brief that I was afraid to advance my claims because the attorney for the
Department of Justice threaten and coerced me not to. Moreover, the record reflects
on February 06, 2019 the Government sent another threatening electronic mail
informing me that if I submitted a manual attachment without informing them first
“there is a problem.”
During the Scheduling Conference on February 07, 2019, the District Court
extended the medical expert depositions due to the Government refusal to make
their medical experts available during the original Court scheduled deposition due
date as the record will reflect. Most important, I again informed the District Court
during this conference about the Government misconduct that prevented me from
presenting my case fully and fairly, the District Court Magistrate Judge responded
by informing me that I couldn’t have a jury trial because of the rules and laws that
are in place; even though the record reflects that I request a jury trial in my original
complaint under FRCP 38. On February 19, 2019 the District Court dismissed all
of my claims, without warning and granted the “USA” summary judgment. The
record will reflect that both lower Courts failed to take in account the Government
shutdown, the Government misconduct that prevented me from fully and fairly
presenting my case, Government and the District Court refusal to allow me a

V.

chance to depose the Government purported medical experts as requested during
the discovery process, Discovery abuse, District Court refusal to allow my requested
jury trial, District Court and the Fifth Circuit use of uncertified, hearsay purported
Government medical expert reports that was submitted without an affidavit that is
required under Louisiana Law CCP 966 A (4) 2015 to grant the Government
summary judgement, as these are only a few reversible harmful errors both lower
courts refused to address.
With the District Court dismissing all of my claims against the “USA” I filed an
appeal on February 22, 2019. Lower court (Fifth Circuit) affirmed the District
Court ruling for summary judgment in favor of the “USA” on September 12, 2019,
by stating I couldn’t opine a Physician’s informed consent as a Registered Nurse.
Lower Court (District) then denied my motion for rehearing on November 12, 2019.
I Motion the District Court on November 19, 2019 to vacate and amend their
February 19, 2019 judgment under FRCP 59(e) and FRCP 60(b). Moreover, the
record reflects that the District Court wouldn’t address the Government outrageous
misconduct conduct on record until November 21, 2019. Furthermore, it would be a
miscarriage of justice, and set a dangerous precedent if the U.S Supreme Court
allows this clear and convincing outrageous misconduct to go ungoverned.
Additionally, the District Court failed to grant relief under FRCP 60(b) (3)
regarding this judgment that was obtained by fraud and misconduct, which both
lower Courts were well aware of but refused to address the Government
misconduct. Also, the District Court refused to follow local, state, and federal rules
and laws to make this legal process fundamentally fair. The precedent has been set
forth by the Louisiana Supreme Court, and the Louisiana Office of Disciplinary
Counsel that clearly establishes what attorney misconduct is in Louisiana. As the
Government attorney on record misconduct falls exactly into misconduct that is
prohibited in the state of Louisiana. Reasonable jurist would concur that the
District Court displayed bias by allowing the Government to obstruct justice at will,
which resulted in an unfair legal proceeding and a denial of my due process. The
Government misconduct rises to the level of coercion of testimony because I was told
by the Government what material evidence I could and couldn’t enter to support my
case; which this coercion stop me from fully and fairly presenting material evidence
that would have supported my claims.
On December 02, 2019 I filed a Motion 62.1 and a Motion to Amend Doc.127 for
(New Evidence) that I recovered in late November 2019. My new material evidence
would have altered the District Court summary judgment because it offers genuine
issues of material fact for trial. The new relevant evidence includes the confessions
of the Government’s clients who provided negligent medical care to my father
during the said time of this legal matter. It would be a manifest injustice and a
deprivation of 5th and 14th Amendment rights if I’m not allowed to enter my new
material evidence to prove my case. The District Court refused to vacate and
amend their summary judgment order, and grant a new trial under FRCP 59 and

s

FRCP 60(b) that includes misconduct, mistake, extra ordinary circumstances, and
new evidence. On or about December 12, 2019 I filed a Motion to Appeal of the
District Court denial of my FRCP 59 and 60 (b) motions. Fifth Circuit (19-30994)
upheld the District Court ruling in its unpublished opinion (Appendix 1-5) dated
July 24, 2020, and then denied my request for a rehearing en-banc on October 09,
2020 (Appendix 6-9).

REASONS FOR GRANTING THE WRIT
1. Whether the Respondent/Defendant can use direct evidence of
threats, intimidation, coercion, fraud, and witness tampering to
deprive a petitioner of his 5th and 14th Amendments rights of due
process and the fundamental fairness to present my case fully and
fairly. The Fifth Circuit’s opinion in this legal matter conflicts with
another circuit’s opinion regarding the allowance of fraud and
misconduct (obstruction, coercion) in a civil proceeding that
requires this Court’s intervention. Does direct, clear and convincing
evidence of the Respondent/Defendant egregious misconduct
requires relief under F.R.C.P 60 (b) (3) (6)?
Writ of Certiorari is warranted in this legal proceeding because the Fifth
Circuit’s decision conflicts with one or more Federal Court of Appeals decision see,
Rembrandt Vision Technologies, L.P., v. Johnson & Johnson Vision Care, Inc., 20151079 (11th Cir. 2016); were the 11th Cir. reverse because of misconduct and fraud.
This Court should also review this case to determine whether direct clear and
convincing evidence of fraud, coercion, intimidation, threats, and witness tampering
on part of the Government that prevents a petitioner from fully and fairly
presenting their case requires relief under FRCP 60 (b) (3) (6). Specifically, this
Court should allow writ to determine whether it’s constitutional for Circuit Court of
Appeals to allow Government attorneys to commit fraud and outrageous misconduct
at will during official legal proceeding that deprives petitioners of their due process
and fundamental fairness to present their case. Also, I respectfully request this
Court to grant a Writ of Certiorari because the lower Courts (19-30994) failed to
answer questions of constitutionality, lower Court decided upon federal questions
that this Court should answer, and the lower Court decision (Appendix 1-5) conflicts
with this Court’s prior ruling regarding the same legal matters.
The record (19-30994) reflects that I provided the Fifth Circuit with four
statements that the Government sent me in letter form via electronic mail with
criminal intent to obstruct and prevent me from moving forwarded with my claims
to prove my case. Moreover, the record reflects that the Government never stated

^0

on record that they didn’t have criminal intent to obstruct this official proceeding.
Listed below are the obstructed statements sent to me by the Government, as these
letters are located within the record for this Court to view:
(1) “However, if you go forward with anymore baseless accusations I
will file sanctions.”
(2) “I can of course, get the court involved if you keep trying to make this matter
into something criminal
(3)If I can’t locate the exhibits despite an exhaustive search, there is a problem.”
(4) “If you have proof, bring it forward in the same manner that an attorney
would be required to do so
As seen in the Fifth Circuit’s opinion (Appendix 1-5) the lower court (19-30994)
would only address certain Governments statements two (2) through four (4) and
neglected the main obstructed statement by the Government which was number
one(l). This neglect by the Fifth Circuit to address the main clear and convincing
evidence of egregious misconduct/obstruction by the Government shows bias, and
has deprived me of my 5th and 14th Amendment rights of fundamental fairness.
The record reflects that I only submitted (6) six entries into the record after I was
threaten not to move forward with my material evidence; of my six entries (5) five of
them were informing the District Court about the Government misconduct. Even
though I made several pleas to the District Court for help with this misconduct, the
lower Court wouldn’t address the Government misconduct on record until
November 21, 2019; after I motion the Court to amend its judgement. The District
Court (5:17-cv-00784) stated that the electronic mails from the Government “are
what they are.”
The Fifth Circuit’s opinion in this matter brings questions of federal law that
requires this Court to answer. 18 U.S.C §1503 defines in pertinent parts that
Obstruction of Justice “is an act the corruptly or by threats or force, or by any threatening letter
or communication, influences, obstructs, or impedes, or endeavors to influence, obstruct, or impede,
the due administration of justice.” I’m also a witness in this legal matter so 18 U.S. C
§1512 “Tampering with a witness, victim, or an informant” (b) Whoever knowingly use
intimidation, threatens, or corruptly persuades another person, or attempts to do so, or engages in
misleading conduct toward another person, with intent to (2) cause or induce any person to (A)
withhold testimony, or withhold a record, document, or other object from an official proceeding.

These federal laws applied to this civil case because of the Government egregious
misconduct. Government violated the above federal laws in bad faith as 18 U.S.C
§1503 applies to federal cases see, Roberts v. United, 239 F.2d 467, 470 (9th Cir.
1956).
This Court precedent states that there must be a nexus between the criminal
intent to obstruct and the knowing of an official proceeding, which the Court records
in this case, proves that the Government had criminal intent to obstruct this legal

proceeding they knew of. As the Government main objected was to stop me from
entering material evidence such as (medical-expert report against the nurses/ non­
medical employees, evidence of violation of Hospital Bylaws, proof of perjury and
elderly abuse) against their clients. Also, the record reflects (19-30994) that I have
proved the three elements of Obstruction of Justice under 18 U.S.C § 1503 “(1) a
judicial proceeding was pending (2) the defendant knew of the judicial proceeding
(3) the defendant acted corruptly with specific intent to influence, obstruct or
impede that due administration of justice,” see United States v. Sharpe, 193 F.3d
852, 864 (5th Cir. 1999); United States v. Scaife, 749 F. 2d 338, 348 (6th Cir. 1984) for
violation of U.S.C.§ 1512. As the record (19-30994) will reflect that the Government
didn’t deny their criminal intent to obstruct this official proceeding to protect their
clients. Moreover, this FTCA case originated in Louisiana and Louisiana Legal
Ethic Rules 8.4 states attorney misconduct is (d) Engage in conduct that is
prejudicial to the administration of justice (g) Threaten to present criminal or
disciplinary charges solely to obtain an advantage in a civil matter. Other
Louisiana states laws that the Government violated that were related to this legal
matter is La. R.S. 14:130.1 (A) (1) (4) (a), and La. R.S. 14:27 (A). Violation of these
federal and state laws, by the Government violated my constitutional rights of due
process to present my case fully and fairly.
Furthermore, the Fifth Circuit in it opinion stated that I didn’t present
expert testimony, which was an error and a clear manifest injustice. In my original
complaint (5:17-cv-00784) Physicians and nurse s/non-medical employees were listed
in this case as defendants, and therefore could require an expert report for these
medical professions if needed under Louisiana law. I provided an Physician medical
expert report that stated that the Department of Veterans Affairs physicians
breeched the standard of care that cause my father loss of chance for survival, and
eventual death. However, due to the Government coercion, intimidation, and
witness tampering I was afraid to submit my medical expert against the Physicians,
but the Government submitted into the court record my expert report with their
own interpretation of my Physician medical expert report.
I was limited on how I could brief my own Physician medical expert report,
because I was afraid of sanctions and jail time from the Government attorney. Most
important, the Fifth Circuit (19-30994) and District Court (5:17-cv-00784) records
will prove that the lower Courts were briefed about the material evidence I couldn’t
submit because of Government threats and coercion. One main material evidence
that I couldn’t submit to support my claims was my medical expert report affivadit
against the nurses/non-medical that was allowed in this FTCA case please see,
Adams v. Home Health Care of Louisiana, et al 775 So. 2d 1064 (La. Supreme Court
2000). Were nurses can be medical experts in the State of Louisiana, and are held
to the same medical standards as Physicians when they are listed as defendants.
For the lower Court to state that the District Court was right in dismissing my case
because I didn’t have expert reports was a reversible harmful error when the
records reflects that I had a Physician medical expert report, and the Government

wouldn’t allow me an opportunity to submit my medical nurse expert report to
support my case.
As a black, minority, pro se filer I was very afraid once the Government
threaten me with sanctions and court involvement (jail) if I move forward with my
claims to prove my case; especially when I realized as the lower Court record
reflects that both lower Courts was turning a blind eye to this misconduct. In both
the Western District of Louisiana Court record (5:17-cv-00784) and the Fifth Circuit
record (19-30994) I informed the Courts that the Government threats, intimidation
and coercion has caused me undue stress and depression. Even though this is a
civil case I rely on the following cases to support my stance in this case, Arizona v.
Fulminante 499 U.S. 279 (1991), United States Supreme Court; Payne v. Arkansas
356. U.S. 560 (1958) Supreme Court of the United States quoting Watts v. Indian
338 U.S. 49, 52, 53 “[tjhere is torture of mind as well as body, this will is as much affected by

fear as by force,” Armstrong v. Manzo ET UX. 380 U.S. 545 (1965) Supreme Court of
the United States quoting Crannis v. Ordean, 234 U.S. 385, 394 “A fundamental
requirement of due process is the opportunity to be heard.” The lower Courts allowed the
Government to use egregious misconduct to take my opportunity to be heard, which
has prejudiced and deprived me of my due process.
Another reason why this Court should grant writ in this case is because
material evidence in both lower Courts records proves that the Government was
allowed to use fraudulent evidence to gain summary judgement in this case. The
Government main medical expert report was false evidence, and this is why their
experts wasn’t made available for my requested depositions. Their expert reports
wasn’t sworn to or in affidavit form as required under Louisiana summary
judgment law, and was inadmissible hearsay, see LA Code Civ. Pro 966 (2015) (A)
(3) After an opportunity for adequate discovery (4) The only document that may be filed in support of
or in opposition to the motion are pleading, memoranda, affidavits, depositions, answers to
interrogatories, certified medical records, written stipulations and admissions. Most important,

District Court record (5:17-cv-00784) and Fifth Circuit record (19-30994) shows that
I briefed both lower Courts about this fraudulent evidence, provided evidence of
such, made Motions to Strike and Motion in Limine which the lower Courts
prejudice me by refusing to address my Motion in Limine. District Court record
(5:17-cv-00784) shows that the court only gave an opinion on one of Government
purported medical experts. They refused to give an opinion on the main
Government purported expert witness, then used the this same purported
Government hearsay expert report that they refused to give an Motion in
Limine/Stike opinion on to craft their summary judgement in favor of the
Government. Moreover, the record shows that the Fifth Circuit prejudice me when
they wouldn’t follow their own precedent regarding submitting expert reports that
wasn’t in sworn affidavits form, to uphold the District Court opinion see, NisshoIwai American Corp. v. Kline, 845 F.2d 1300, 1306 (5th Cir. 1988); Larry v. White,
929 F.2d 206, 211 N. 12 (5thCir. 1991) “It is well settled rule in this circuit that an unsworn
affidavit is incompetent to raise a fact issue precluding summary judgment.

9.

Government use of fraudulent evidence with the lower Courts being aware of
this fraud violates due process and the fundamental fairness of this proceeding.
Furthermore, the record reflects that the Government didn’t provide any material
evidence to dispute this fraud on the Court that would have been found if the lower
Courts would have addressed Motion to Strike/Motion in Limine request. Also, with
the Government knowingly submitting fraudulent expert reports violated La. C.C.P
1953. La. C.C.P. art.2004 provides that [a] “final judgement obtained by fraud or ill
practices maybe annulled.” Napuev v. Illinois. 360 U.S. 264, 269 (1959) can be applied
to this case because the Government was granted summary judgement with the aid
of false evidence that the Government knew or should have known was false. This
denied me my due process because there is a reasonable likelihood that the outcome
of this case would be different if this falsified evidence wouldn’t have been used by
both lower Courts. Also, see Chambers v. Nasco, Inc; 501 U.S. 32, 44 (1991) who
stated that the Courts should grant relief for fraud on the Court to protect the
“integrity of the Courts. ” Lower Courts displayed bias and prejudice by allowing the
Government to commit fraud on the Court freely, and in doing so violated my due
process. Due process guarentees “an absence of actual bias,” In re Murchison, 349
U.S. 133, 136, 75 S.Ct.623, 99 L.Ed. 942 (1955), also see Klapprott v. United States,
355 U.S. 601, 69 S. Ct. 384, 93 L. Ed. 266 (1949). This Court should grant writ
because it would be a miscarriage of justice and set a dangerous precedent if the
Government is allowed to openly obstruct an official proceeding, openly use
psychological coercion on a petitioner, use fraud on the Courts, deprive petitioners
of their due process; while the lower Courts stay silence and allow this manifest
injustice to happen. Moreover, the Government has not provided any evidence to
contradict the evidence that they didn’t have criminal intent to obstruct this official
proceeding to protect their clients. This case will show if the integrity of the judicial
system is still intact, which I believe it is; as this Court should grant writ and relief
under FRCP 60 (b) (3) (6).
2. Whether a Pro Se Petitioner Seventh Amendment right to a jury trial
can be denied by the lower Courts in a civil proceeding, when the
disputed amount is greater than twenty dollars ($20.00), and the jury
trial was requested by the petitioner in writing in the Original
Complaint under F.R.C.P 38?
This Court should grant writ in this case to determine whether the lower
Courts can inform a petitioner that he or she doesn’t have the Seventh Amendment
right to a jury trial, and they must have a bench trial regardless of their timely
written demand for a jury trial. I hied my initial complaint on June 16, 2017, with
the Western District of Louisiana District Court, and within this complaint I

JO

requested a jury trial under FRCP 38. According to FRCP 38 a party may serve a
written demand for a jury trial within their pleading which I completed. However,
in bad faith on December 13, 2018 the Government made a Motion to Strike my jury
trial demand a year in a half after my request as the record reflects this date, which
this Motion should have been rule untimely.
On February 07, 2019 the District Court held a status/scheduling conference
where the Magistrate Judge for the District Court (5:17-cv-00784) informed me that
it was rules and laws in place stating that I’m not allowed a jury trial in this case.
My Seventh Amendment right, and fundamental fairness that is guaranteed under
the 5th and 14th Amendments was violated when the District Court Magistrate judge
wouldn’t allow me to have my jury trial that I requested in writing. Moreover the
Government knew that the Court informed me of this reversible error, and that’s
why the lower Courts records reflect that neither the District Court nor the
Government has denied this prejudice against me. Furthermore, the record reflects
that I was denied a jury trial because a bench trial gave the District Court Judge
authority that he wouldn’t have in a jury trial.
Additionally, the record reflects (District Court 5:17-cv-00784) (Fifth Circuit 1930994) that I briefed the District Court and the Fifth Circuit regarding these
constitutional violations, but the lower Courts again stood silence on these
constitutional issues. This is an FTCA case, so the laws of the State this case
originated in govern this case; L.R. 38.1 recognizes the Seventh Amendment right to
jury trial, LA Code Civ Pro 1733 (B) “ A motion to withdraw a demand for a trial by jury shall
be in writing.” The record in this case reflects that I never made a demand in writing
to withdraw my trial by jury request. FRCP 38 (d) states when it comes to a jury
trial “a proper demand may be withdrawn only if a party consent.” I never
consented; the District Court informed me that I couldn’t have my Seventh
Amendment right to a jury trial. I rely on the following cases to support my stance
that I have Constitutional rights to a jury trial in this civil matter, see United
States v. Regan, 232 U.S. 37, 47 (1914), Hepner v. United States, 213 U.S. 103, 115
(1909), Tull v. United States, 418 U.S.412 (1987).
3. Whether the lower Courts committed reversible error and violation
of petitioner’s Constitutional rights to present relevant, noncumulative, evidence under F.R.C.P 60 (b) (2) (6); were the
Respondents/Defendant’s clients has admitted to guilt and guilt of a
third party?
Due to the national importance of this issue the Supreme Court should grant
writs to determine if the lower Courts can deny constitutional rights to present new
evidence that is relevant, admissible, technical adequate, and raises genuine issues
of material facts for trial. Moreover, the lower Courts denial of my FRCP 60 (b) (2)

n.

(6) motion has seriously affected my substantial rights, and the guaranteed fairness
of the judicial process. Especially, when evidence from the record shows that the
Government was granted summary judgement using outrageous misconduct and
false evidence. On December 02, 2019 I informed the District Court that I had new
evidence that would raise genuine issues of material facts that warrants a new
trial. Moreover, this evidence includes confessions from the Government’s clients
who provided direct medical care to my father during the said time of the legal
matter in question (April 11, 2015-July 1, 2015).
The Government’s clients confessed to the negligent medical care and the use of
fraudulent practices of other staff members that resulted in my father loss of chance
of survival and untimely death. Likewise, this evidence would have resulted in a
different judgment regardless of the Government fraudulent expert reports, if I was
able to submit this evidence before their summary judgment ruling. Even though
this is a civil case the following criminal case statement can be applied to this legal
action, see Arizona v. Fulminate, 499 U.S. 279, Supreme Court of the United States
(1991) which stated “A confession is like no other evidence. In deed the defendant’s
own confession is probably the most probative and damaging evidence that can be
admitted against him.” I rely on Washington v. Texas, 388 U.S. 14 (1967) Supreme
Court of the United States; “The right to offer the testimony of witness and to
compel their attendance if necessary is in plain term the right to present a defense;”
which my new evidence is my defense against the Government’s clients. Also, my
new relevant material evidence is admissible under Louisiana one-party consent
state law, see La. Rev. STAT15:1303(c)(4) and 18U.S.C. 2511(2)(d). However, both
Courts refused to allow me an opportunity to submit this evidence to prove my case,
and in doing so the District Court and the Fifth Circuit has displayed judicial bias
and prejudice in this civil matter. Moreover, my new evidence want cause any
prejudice to the Government, and is completely different from my prior evidence
that I was able to submit in this case.
Due to several debilitating medical conditions that affected my health to
include memory issues I didn’t remember that I had this relevant evidence, and
couldn’t remember where it was located. I informed the District Court and the Fifth
Circuit about my medical issues that caused my memory problems which became so
debilitating that I had to resign from my employment. The District Court stated
that my medical issues were hearsay. I presented my medical conditions in layman
terms to both lower Courts which are chronic migraines, early dementia, stroke,
removal of prostate for cancer, and spread of cancer from prostate. Then, I provided
both lower Courts with my medical records to prove my illness. The medical
evidence I submitted to the Court that displays my medical conditions has been
kept in normal business at Christus Trinity Mother Francis Hospital, and at the
Social Security Administration is admissible under the Louisiana business-exception
rule “La. Code of Evidence Rule 803.” It is a medical fact that any individual with
my medical issues would have severe problems with memory, and thanks to ongoing
treatments and medications I’m now doing better. Also, the District Court and the

Fifth Circuit erred, displayed bias, and deprived me of my constitutional right to
present evidence by stating that my medical condition wasn’t an extraordinary
circumstance that requires a reversal under FRCP 60(b) (2) or (6) to enter new
relevant critical evidence. Additionally, there wasn’t a need to request the District
Court for a continuation to find my new material evidence because I didn’t
remember that I had it or its location.
Furthermore, when I remembered that I had my relevant evidence, I did my
due diligence to locate it, and requested both lower Courts to submit my evidence
within the one year required guideline to submit new evidence. Reasonable jurist
would conclude that I in fact pursued my claims diligently once I remembered that I
had my evidence that will provide genuine issues of material fact for trial. The
Sixth Circuit Court found in the following case that the petitioner medical condition
qualified as extraordinary circumstances, and he in fact diligently pursued his
claims, see Stiltner v. Hart, 657 F. App’x 513 (6th Cir. 2016). Also, as stated in
Ripley v. Chater, 67 F.3d 552 (5th Cir. 1995): “When new evidence becomes available after
the Secretary’s decision and there is a reasonable probability that the new evidence would change
the outcome of the decision, a remand is appropriate so that this new evidence can be considered,”

also see United States v. Murray, 736 F.3d 652 (2nd Cir. 2013), Unites States v.
Carmen, 697 F.3d 964 (9th Cir 2012), United States v. Turning Bear, 357 F. 3d 730
(8th Cir. 2004). Moreover, my new evidence will dilute the record to such an extent
that the District Court’s decision to grant the Government summary judgment
becomes insufficiently supported. As the Western District of Louisiana District
Court record (5:17-cv-00784) reflects the Government never prohibited my request
to enter new evidence, and the Fifth Circuit record (19-30994) reflects that the
Government only used the defense that the District Court provided for them to deny
my request to enter new relevant material evidence. This display of bias and
prejudice used to prevent me from entering new evidence, and has deprived me of
my due process; which requires relief under FRCP 60 (b) (2) (6).
4. Whether cumulative-error doctrine applies to Civil Proceeding.
There is circuit split regarding cumulative error applicability in civil
cases which requires this Court supervisory power. Do cumulativeerrors that deprive a petitioner of their Constitutional rights of
fundamental fairness to present my case fully and fairly in Civil
Proceeding require relief under F.R.C.P 60 (b)?
Another important reason for this Court to grant writs of certiorari in this case
is because there is a circuit split regarding cumulative error applicability in civil
cases. The First, Second, Sixth, Seventh, Eight Circuits applies the cumulativeerror doctrine to civil cases, see Hendler v. United States, 952 F.2d 1364, 1383 (Fed.
Cir 1991), Malek v. Fed. Ins 994 F. 2d 49, 55 (2nd Cir. 1993), William,s v. Drake, 146
F.3d 44, 46 (1st Cir. 1998), Nichols u. Am. Nat’l Ins., 154 F3.d 875, 889-90 (8th Cir.
1998), Thompson v. City of Chicago, 772 F. 3d 963, 979 (7th Cir. 2013). However,

/$,

the Third Circuit hasn’t accepted applicability of cumulative errors, SEC v. Infinity
Grp. Co., 212 F. 3d 180, 196 (3''d Cir. 2000). Moreover the cumulative-error doctrine
requires that the lower Courts judgments be set aside if these courts errors even if
individually harmless, “so fatally infect the trial when aggregated that they violate
the trials fundamental fairness,” United States v. Basham, 561 F. 3d 302, 330 (4th
Cir. 2009) (quoting United States u. Bell, 367 F. 3d 452, 471 (5th Cir. 2004)). Even
though my constitutional rights to a jury trial was taken away from me, the lower
Courts cumulative errors affected this legal proceeding to the point that they
deprived me of my constitutional rights of due process, and the guaranteed
fundamental fairness of the legal process.
Fifth Circuit record (19-30994) reflects that the lower Court ignored the
cumulative errors of the District Court in this case, even when I provided evidence
of this prejudice that violated my due process. The following are cumulative errors
that the Fifth Circuit wouldn’t address that rendered this legal process unfair:
The District Court committed harmful procedural error, and deprived me of
fundamental fairness by refusing to have an evidentiary hearing to address my
Motion to Strike, Motion in Limine, and Daubert Challenge of the Government
medical experts. The record reflects that the Court didn’t do its gatekeeping duties
as required by this Court, see Daubert v. Merrell Dow Pharmaceuticals, 509 U.S.
579; 113 S.Ct. 2786 (1993);Kumho Tire Co. v. Carmichael 526 U.S. 137(1999).
Moreover, the Fifth Circuit affirmed this harmful error, by refusing to address it in
their opinion (Appendix 1-5); their refusal to address this matter has deprived me of
my due process. Both lower Courts misapplied and neglected to abide by the
following Louisiana Laws regarding my objections to the Government experts
Louisiana Code Civil Procedure 966 A(4); La. Code of Civ. Pro. Art. 964, Louisiana
R.S. 9:2794 (D) (1) (b), and Louisiana Law: CCP 1425 F (2).
Government unsworn hearsay medical expert reports were immaterial,
impertinent, false and should have been stricken from the record; as this was a
harmful reversible error that both lower Courts ignored. It was fundamentally
unfair for the lower Courts to allow the Government to submit unsworn expert
reports, and then use these inadmissible hearsay reports to construct their ruling to
grant the Government summary judgment. Unauthenticated documents can’t be
used to oppose summary judgment, see Nissho-Iwai American Corp. v. Kline, 845
F.2d 1300, 1306 (5th Cir. 1988), Larry v. White, 929 F.2d 206, 211 N.12 (5thCir.
1991) “It is well settled rule in this circuit that an unsworn affidavit is incompetent
to raise a fact issue precluding summary judgment.” Most important with the lower
Court going against its own precedent to uphold a ruling for the Government shows
how I have been prejudice in this legal matter, and deprived of my due process.

H.

On February 12, 2019 the District Court committed harmful reversible err by
agreeing to keep the record open so I can enter evidence before trial, but closed the
record a few days later without warning on February 19, 2019. This was a harmful
reversible err see, Smith v. Elmwood Medical Center, 720 So. 2d 122, 1224 (La. 5th
Cir. 1998), “Once the record is left open for evidence, the trial court abuses his
discretion in rendering judgment a few days later without notice to the parties of
his intent to do so.”
The Court committed direct, obvious, observable, and reversible error by
allowing the Government to deny me of my right to a fair discovery by failing to
make their experts and physicians available for requested depositions according to
the scheduling order, see G-KProperties u. Redevelopment Agency 577 F.2d 645 (9th
Cir. 1978). Moreover, the record reflects that I informed and submitted material
evidence displaying the Government refusal to comply with the Court mandated
orders to have their experts and physicians readily available for depositions. Also,
the records (District Court 5:17-cv-00784) (Fifth Circuit 19-30994) displays that the
District Court help the Government out by extending the depositions on February
09, 2019 until March 15, 2019, but dismissed my case without allowing me a chance
to a fair Discovery 10(ten) days later on February 19, 2019.
Actually bias and error was displayed by the Courts when my medical issues
prevented me from entering my new material evidence that’s in question now. The
lower Courts stated that my illness and medical records to prove my illness was
hearsay. However, when the Government attorney only explained her illness the
Court said it was okay to deny my discovery based on the explanation. Moreover,
the Government attorney only informed the Courts that she had an illness when I
requested sanctions for the Government intentionally violating the discovery rules
(District Court 5:17-cv-00784). The records reflects that the Government attorney
never provided the lower Courts with any certified medical records or Physician
letter that stated there was really an illness, it’s a question that the Government
used this as an excuse to get out of sanctions for their actions. On the other hand,
as stated above I submitted certified medical records to prove my illness, but I
didn’t get relief from the lower Courts like the Government did with no medical
records to prove illness. I was denied relief and told that my serious illness and
medical records to prove my illness was hearsay. This bias by the lower Courts
deprived me of my due process and fundamental fairness to present my case fully.
A likelihood or appearance of bias can disqualify a judge, see Taylor v. Hayes 418
U.S. 488, 501, 94 S. Ct. 2697, 41 L. Ed. 2d 897 (1974)
My FRCP 59 and FRCP 60(b) motions were unopposed by the Government
contained questions of constitutionality that affects public interest, new evidence,
Government misconduct, and fraud which all required answers from the
Government not the District Court. I have been prejudiced in this case because the
District Court gave the Government an unfair advantage by issuing an opinion
without requesting a response from the Government. It was the Government’s job
to prove that I haven’t been prejudiced, my constitutional rights haven’t been

/£

violated, they didn’t commit misconduct, and my new evidence isn’t relevant in this
legal proceeding. However, the District Court provided a defense for the
Government hence making this case fundamentally unfair. It’s a clear abuse of
discretion and harmful reversible procedural error for the District Court to become
counsel for the Government which requires a reverse of both Courts “Ruling.” The
record reflects that the Government brief to the Fifth Circuit was a rewrite of the
defense provided for them by the District Court.
I have to state again that the prejudice from the cumulative errors has
undermined the fundamental fairness that supposed to be guaranteed in this case,
and the denial of my constitution rights to due process requires relief under FRCP
60 (b). I rely of Liljeberg v. Health Services Acquisition Corp., 486 U.S. 847 (1988)
because the impartiality of the District Court judge can be called into question in
this case. Also, see Withrow v. Larkin, 421 U.S. 35, 47, 95 S.Ct. 1456, 1464, 43 L.
Ed. 2d 712 (1975) (citations omitted) “not only is a biased decision maker
constitutionally unacceptable but our system of lav/ has always endeavored to
prevent even the probability of unfairness;” also see Tumey v. Ohio, 273 U.S. 510.
Moreover, I rely on one of the lower court cases which is United State v. Sipe, 388
F.3d 471(5th Cir. 2004) “A miscarriage of justice harms the substantial rights of a
defendant, and it consist of errors and omissions considered for their cumulative
effect on the trial proceeding.”

CONCLUSION
Given all of the above this, Court should grant certiorari, to answer the
questions presented, and consider this case on the merits. As the highest Court in
the nation this Court should determine if Government attorneys can use coercion,
witness tampering, intimidation, and threats to deprived petitioners of their Fifth
and Fourteenth Amendment rights to present their case fully and fairly. Also, this
Court should determine if the cumulative errors apply to civil cases, and can the
lower Courts deny a petitioner their Seventh Amendment Right to a timely
requested jury trial. Finally, I’m respectfully requesting the highest Court to issue
a writ of certiorari to review the judgement of the Court of Appeals for the Fifth
Circuit
Kenyon J Garrett
Petitioner/Appellant Pro Se
P.O. Box 132826
Tyler, TX 75713
(903) 574-0783
Kentvler88@gmail.com

/L

'

